FAA DID NOT ENSURE REVENUE WAS
          MAXIMIZED AT
 DENVER INTERNATIONAL AIRPORT

      Federal Aviation Administration
       Report Number: AV-2011-057
      Date Issued: February 28, 2011
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   ACTION: FAA Did Not Ensure That                                                Date:    February 28, 2011
           Revenue Was Maximized at
           Denver International Airport
           Federal Aviation Administration
           Report Number AV-2011-057

  From:    Jeffrey B. Guzzetti                                                         Reply to
                                                                                       Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           Federal law 1 requires that airport sponsors receiving Federal grant funds establish
           an airport facility fee and rental structure 2 to make the airport as self-sustaining as
           possible. Also, sponsors must use airport revenues only for airport capital and
           operating costs. Use of airport revenue contrary to Federal law is a revenue
           diversion. Since 1991, the Office of Inspector General has identified over
           $375 million in airport revenues that airport sponsors improperly used or did not
           collect. In 1999, 3 we identified over $2.4 million in diversions and uncollected
           airport revenues at Denver International Airport.

           For fiscal years 2006 through 2008, the Federal Aviation Administration (FAA)
           awarded the Denver airport sponsor $40.5 million in Airport Improvement
           Program (AIP) grants. In fiscal year 2009, the airport was awarded $12 million in
           American Recovery and Reinvestment Act funding. The objective of this review
           was to assess the effectiveness of FAA’s oversight in ensuring (1) the airport is as
           self-sustaining as possible and obtains fair market value for land sales and (2) the
           sponsor uses airport revenues only for airport purposes in accordance with Federal
           law. These revenues include those from the sale of the Stapleton International
           Airport (Stapleton) property. The Stapleton airport was closed and replaced by the
           Denver airport in February 1995. We conducted this review between July 2008

           1
               The Airport and Airway Improvement Act of 1982, as amended and codified in Title 49 United States Code Section
               47107(b).
           2
               Airports can charge landing fees, rental charges, and other service fees for use of airport facilities.
           3
               OIG Report Number AV-1999-052, “Use of Airport Revenue, Denver International Airport,” January 27, 1999.
               OIG reports are available on our website at www.oig.dot.gov.
                                                                                                                     2


and November 2010 in accordance with generally accepted government auditing
standards prescribed by the Comptroller General of the United States. Exhibit A
details our objectives, scope and methodology, and related audits. Exhibit B lists
the stakeholders visited or contacted.

RESULTS IN BRIEF
While FAA is responsible for the effective oversight of airport revenues, it has
allowed the City’s property manager to dispose of Stapleton land at an estimated
loss of at least $71 million in revenue that would have greatly increased the
airport’s self-sustainability. FAA grant agreements, Federal law, and a Stipulated
Agreement between the City and airlines 4 require fair market value for Stapleton
property. However, FAA allowed the purchase price of land parcels to be
determined based on appraised values established in 1999, 5 despite evidence of
increasing property values. If the parcels had been sold for their fair market value
at the time of transfer the City’s property manager would have received
considerably more for each sale. For example, in 2004, the City’s property
manager provided one parcel to the developer for $385,684 even though the land
was actually worth $3 million according to the deed issued at the time.

FAA oversight was not effective in ensuring proper use of airport revenues.
Specifically, the 1999 appraisal reduced the Stapleton land value by more than
50 percent to offset (1) district fees 6 that the developer agreed to pay for
redevelopment and (2) funding the City anticipated it would need to build
infrastructure, which the developer agreed to cover up front with reimbursement
plus 10 percent interest. By reducing the land value, the City, in effect, diverted
airport revenue to fund redevelopment, parks, and infrastructure—a federally
prohibited non-airport purpose. We estimate that $40.5 million of the $71 million
in lost revenue was the result of diverted funds from Stapleton property sales for
non-airport purposes. While FAA questioned the appropriateness of the
reductions, it accepted the appraisal. This contradicted FAA grant conditions
requiring that revenues from land sales be used to pay Denver airport’s
outstanding bond debt, which was approximately $4.1 billion in 2009.




4
    In 2000, the City and airlines entered into an agreement stipulating terms for the disposition of Stapleton. The
    Stipulated Agreement contains provisions requiring fair market value according to Federal law. Signatory airlines to
    the Stipulated Agreement included American Airlines, American Trans Air, Continental Airlines, Delta Air Lines,
    Federal Express Corporation, Northwest Airlines, Trans World Airlines, United Air Lines, and US Airways.
5
    The appraisal report was issued in 2000 by the City’s appraiser, but the appraisal determined the value of Stapleton
    land as of December 1999. We refer to the appraisal as the 1999 appraisal in this report.
6
    These fees are known as “impact fees” paid to a Title 32 district. This is a special district (created pursuant to
    Title 32 of the Colorado Revised Statutes) for the purpose of funding and carrying out the design, development,
    construction, and maintenance of the infrastructure.
                                                                                                          3


We are recommending that FAA redirect its oversight and take specific actions to
ensure the Denver airport receives fair market value for Stapleton property, is
reimbursed for lost revenue, and uses revenue in accordance with Federal law.

BACKGROUND
On February 28, 1995, Stapleton International Airport closed due to capacity
constraints and was replaced by the Denver International Airport. With the
closure of Stapleton, the City was charged with disposing of more than 4,000 acres
of land by either redeveloping the site or having a bulk land and improvements
sale. The City chose to redevelop the property. The City began planning for
Stapleton’s redevelopment in the late 1980s and finalized its Stapleton
Development Plan in March 1995. The plan provides for a 30- to 40-year
conversion of the property to a series of mixed-use communities connected by an
extensive system of open space and transportation improvements. To facilitate the
disposal and redevelopment of the Stapleton site, the plan recommended that the
city create a non-profit entity to provide management, sales, leasing, and
contracting functions. In July 1995, the City created the Stapleton Development
Corporation (SDC) to fill this role.

In 1998, SDC selected Forest City Enterprises as master developer for the project,
awarding it the exclusive right to negotiate the purchase of Stapleton property.
Under SDC’s written agreement with the City, SDC is selling Stapleton property
at the 1999 baseline appraisal value, adjusted every 6 months using the Consumer
Price Index (CPI). 7 Since 2001, Forest City has acquired more than 1,400 of the
total 2,935 developable acres. Forest City has until December 2025 to obtain the
remaining developable property.

Generally, Forest City acquires the property, installs the infrastructure, and then
sells it to a homebuilder or commercial developer. In addition to the
2,935 developable acres, 1,116 acres will be converted into parks and open space.
Forest City is not responsible for developing the parks and open space; instead, it
provides the funding for this development through payment of an impact fee to a
Title 32 district, which was created to fund and carry out the design, development,
construction, and maintenance of infrastructure.

The redevelopment of Stapleton was not without controversy. In 1995, the airlines
filed a formal complaint with FAA alleging the City intended to divert millions of
airport revenue to finance Stapleton’s redevelopment. Subsequently, the City filed
suit to require three airlines—United, Delta, and Continental—to remediate
environmental contamination of Stapleton property. In 2000, to resolve these
issues, the City and airlines entered into an agreement stipulating terms for the

7
    The Consumer Price Index is developed by the U.S. Department of Labor’s Bureau of Labor Statistics.
                                                                                        4


disposition of Stapleton (Stipulated Agreement). The City and airlines agreed that
Stapleton remediation would be paid for with $15 million from the three airlines
named in the City’s suits and $105 million from airport revenues. Upon execution
of the Stipulated Agreement, the City and the airlines jointly moved to dismiss the
complaint before FAA. FAA then dismissed the complaint. Table 1 shows an
abbreviated timeline of events associated with land sales at Stapleton (see
exhibit C for a more expansive timeline).

                            Table 1. Timeline of Major Events
                                    Event                                    Date
    Stapleton International Airport closes and Denver International     February 1995
    Airport opens.
    City finalizes Stapleton Redevelopment Plan                         March 1995
    City creates SDC                                                    July 1995
    Forest City selected as Master Developer for Stapleton              November 1998
    Effective date of Stipulated Agreement between Airlines and the     January 1999
    City which set terms and conditions for using airport revenue for
    disposal of Stapleton land
    Stapleton appraisal performed                                       January 2000
    (valuing the land as of December 1999)
    FAA accepts the appraisal                                           April 2000
    First sale of property from SDC to Forest City                      April 2001
   Source: OIG analysis of various airport, City, and FAA documents.


FAA DID NOT ENSURE OPTIMAL VALUE WAS OBTAINED FOR
STAPLETON PROPERTY
We estimate that the Denver airport has lost at least $71 million in revenues due to
ineffective FAA oversight of the Stapleton disposition. Even though the City
planned to transfer the property and receive payment over a 25-year period, FAA
allowed the City to sell Stapleton property based on values established in a 1999
appraisal without the option to take advantage of any potential increases in real
estate prices. Despite indications that prices on land parcels did not represent their
true value, FAA has not revisited how the Stapleton land is priced. Property tax
assessments, Stapleton sales transactions, and sales of comparable properties have
shown that the appraisal significantly underestimated Stapleton land appreciation.

FAA Did Not Exercise Effective Oversight of Land Sales, Resulting in
Lost Airport Revenue
FAA’s ineffective oversight allowed Stapleton land to be sold for less than fair
market value. This is despite multiple Federal requirements, legal agreement
provisions, and FAA guidance that applied to the Stapleton land disposition.
Specifically:
                                                                                                                      5


    • Grant agreements between the City and the FAA require that the City should
      dispose of all Stapleton International Airport property at fair market value.

    • Federal law (Public Law 100-223, 1987) requires that the City receive fair
      market value for the sale of Stapleton property.

    • The Stipulated Agreement between the City and the Airlines requires, “that the
      sale of Stapleton property shall be for not less than the appraised fair market
      value, including any price adjustment mechanism….” Although FAA is not a
      party to the Stipulated Agreement and not legally bound to enforce it, FAA
      stated that it used the agreement to guide its efforts in place of its own policies
      in overseeing the disposition of Stapleton. FAA regional policy8 was
      developed early in Stapleton’s redevelopment and disposition timeline in
      anticipation of the high visibility of the redevelopment project. The policy
      outlined the roles and responsibilities of the FAA Airport District Office and
      reiterated the requirements set forth in the grant agreements relating
      specifically to Stapleton. The policy states that the grant assurances require
      Stapleton to be disposed of at the fair market value and charges the Airport
      District Office with ensuring this is done.

    • FAA Order 5190.6A, or the FAA Airport Compliance Requirements dated
      October 2, 1989, provides guidance to FAA personnel to ensure airport
      sponsors’ compliance with Federal obligations such as grant assurances and
      other Federal law. The FAA Order stated that the sponsor will dispose of land
      at fair market value when no longer needed for airport purposes.

      In September 2009, FAA revised its Order which now states that
      “. . . the airport account must receive fair market value (FMV) compensation
      for all deletions of airport real property from the airport . . . even if the sponsor
      does not sell the property or sells the property below fair market value.” Thus,
      even if the City, as airport sponsor, does not receive fair market value from the
      sale of Stapleton land to the developer, the City should provide fair market
      value to the Denver airport (the current airport account). The City does not
      have to modify its agreements with the developer in order to pay the airport
      fair market value.

Although many definitions of fair market value exist, the one used by the City’s
appraiser for Stapleton defined it as:

           the most probable price which a property should bring in a
           competitive and open market under all conditions requisite to a fair

8
    Compliance Policy 95-04 was the initial version of the policy that was issued in July 1995 but was later updated and
    replaced by Compliance Policy 99-02 in April 1999.
                                                                                                            6


          sale, the buyer and seller each acting prudently and knowledgeably,
          and assuming the price is not affected by undue stimulus. Implicit in
          this definition is that the consummation of a sale is at a specified date
          and the passing of title from seller to buyer. 9

All of Stapleton’s property was last appraised in 1999 after SDC selected Forest
City Enterprises as its development partner. As directed by the airport, the
company that appraised Stapleton land applied questionable deductions that
reduced the value of the entire Stapleton property of 4,051 acres (2,935 acres of
developable land and 1,116 acres of open space) by more than 50 percent—from
$162 million to $76 million—and affected the Denver airport’s ability to collect
the revenue it should have from the land sales. For this reason, we do not believe
that the 1999 appraisal represents true fair market value. The property was then
divided up into districts based on “highest and best use” (i.e., industrial,
commercial, retail, and residential) with different appraised values per acre for
each district.

Because FAA accepted the 1999 appraisal of Stapleton and did not enforce the
above requirements, the price Forest City paid for the property was still well
below fair market value. For example, on January 30, 2004, Forest City obtained
a 10.65-acre land parcel for $385,694. The price was calculated using the
December 1999 baseline value plus the applicable CPI adjustment (for this parcel,
11.4 percent). We compared the price that Forest City paid for the parcel and the
actual fair market value recorded in the 2004 warranty deed and found that the
parcel was actually worth $3 million—or 678 percent more than what Forest City
paid (see figure below).




9
    This definition is contained in Federal Register Volume 55, No. 163, or “Title XI of the Federal Financial
    Institutions Reform, Recovery, and Enforcement Act of 1989.”
                                                                                                     7


                  Figure. Example of a Parcel of Stapleton Property
                     Purchased Well Below the Fair Market Value
     $3,500,000
                                                                           $3,000,000
     $3,000,000

     $2,500,000

     $2,000,000

     $1,500,000

     $1,000,000
                         $346,125                  $385,694
       $500,000

           $0
                     Value per Appraisal   Forest City Purchase Price   Fair Market Value
                     December 17, 1999          January 30, 2004        Per Warranty Deed
                                                                         January 30, 2004
Source: OIG analysis of December 17, 1999, appraisal and January 30, 2004, land sale and warranty deed.

Since 1999 the City Has Not Received Fair Market Value for the Sales
of Stapleton Property
FAA’s oversight of Stapleton property focused on monitoring land sales to ensure
that land parcels were not sold twice and did not include any determination of
whether the airport received fair market value for the property. As agreed to with
the City, SDC has sold the Stapleton property at the 1999 baseline appraisal value,
adjusted every 6 months using the CPI. When the Purchase Agreement between
Forest City and SDC was amended in February 2000, no adequate mechanism was
included to consider the likely increases in real estate values over time. While
adjustments based on the CPI reflect changes in the value of a dollar, they neither
accurately indicate price swings in real estate nor represent fair market value. The
CPI simply measures the changes in the price of goods and services purchased for
consumption by urban households but does not include real estate.

Also, officials in the City’s Assessors Office stated that the CPI had not kept up
with the appreciation values of Stapleton’s property based on the Office’s property
tax assessments of Stapleton land. Airport officials contend that this fixed-price
structure, based on the 1999 appraisal, was necessary to sell the land because a
redevelopment of this magnitude was unprecedented and presented “high risk” to
the airport. While we agree that there were risks involved in redeveloping
Stapleton, we would not characterize the redevelopment as unprecedented or high
risk for the following reasons:

  • First, a development the size of Stapleton is not unprecedented. Since the first
    Base Realignment and Closure in 1988, military installations transferred to
    local governments have undergone redevelopments the size and scope of
                                                                                                                      8


       Stapleton. For example, Mather Air Force Base, a 5,700 acre plus piece of
       property located 12 miles east of downtown Sacramento, CA, was closed in
       1993 and transferred to the County of Sacramento in 1996 and has since
       become a thriving cargo airport, commerce center, and upscale residential area
       and parklands. A few years later, McClellan Air Force Base, a nearly 3,500-
       acre piece of property also located about 12 miles from downtown Sacramento,
       was closed in 2001 and has since become a vibrant mixed-use redevelopment
       area.

     • Second, Stapleton is in a prime location in Denver’s metropolitan area, and
       early in Stapleton’s development timeline (before SDC began managing the
       redevelopment) there were indications that Stapleton’s value would appreciate
       significantly. For example, the first sale of Stapleton property occurred in
       March 1995; approximately 28 acres were sold for $350,000, and the
       purchaser immediately resold 18.6 acres for $410,000. We spoke with realtors
       who all agreed that the first sale is the most difficult, but the value of
       subsequent sales would increase with demand.

     • Third, the potential for increased value was also evident when SDC began
       accepting proposals to find a master developer for the property. SDC received
       interest from 20 companies and 11 formal proposals, suggesting that the
       rewards of Stapleton redevelopment were considered worth the risk.

     • Fourth, all of Forest City’s trunk infrastructure costs 10 for Stapleton have been
       reimbursed, with 10-percent interest, by the City, relieving Forest City of the
       biggest risk it would face with a redevelopment of this size—not being able to
       recoup the cost of infrastructure through future sales of developed property. In
       effect, Forest City is rewarded twice under this arrangement: first, by paying a
       reduced price for the property based on the expectation that it would pay for
       the funding shortfall and second, by the City absorbing all trunk infrastructure
       costs. The only remaining risk to Forest City was to sell its property, which it
       has been successful in doing.

     • Finally, the Stapleton developer, Forest City, has continually resold land
       parcels for significantly more than it paid to SDC. For example, from April
       2001 to May 2008, SDC provided 1,416 acres to Forest City for $45.6 million.
       After building the infrastructure, Forest City resold only a portion of these
       1,416 acres for more than $300 million during the same period. Although
       infrastructure added value to the land, it does not justify the disparity between


10
     Forest City constructed “trunk infrastructure,” which is defined as improvements that are constructed and installed
     over multiple land parcels. Examples of trunk infrastructure include public schools, police stations, water
     distribution lines, and storm water collection lines.
                                                                                                               9


       the sales price to Forest City and the amount that Forest City received through
       re-sale of the property.

Yet, despite all of these indications that Stapleton land was being disposed of for
less than its value, FAA did not ensure maximum revenue for Stapleton land sales.
Table 2 below shows the disparity between the purchase price of Stapleton land
and the comparable value of undeveloped land in the Denver metropolitan area
between April 2001 and August 2008. 11

               Table 2. Stapleton Land Sales vs. Comparable Land Sales
                             Number of              Value of           Stapleton        Revenue Lost
          Year         Stapleton Acres           Comparable            Purchase         On Stapleton
                         Transferred to            Property                Price               Land
                             Developer
          2008                     45.4            $4,575,804         $1,045,034          ($3,530,769)
          2007                    107.9           $15,918,545         $3,059,155         ($12,859,390)
          2006                    124.3            $9,009,765         $3,354,047          ($5,655,719)
          2005                     47.6            $8,303,295         $1,721,529          ($6,581,766)
          2004                    317.7           $39,523,087        $10,041,864         ($29,481,224)
          2003                    215.9           $17,774,592         $7,270,196         ($10,504,396)
          2002                     16.5            $2,866,277           $583,910          ($2,282,367)
          2001                     75.0            $1,667,167         $1,800,372             $133,205
          Totals                  950.4           $99,638,532        $28,876,107         ($70,762,425)
         Source: OIG analysis of Stapleton property sales to Forest City and comparable property sales
         provided by an independent Denver metropolitan area consultant specializing in real estate
         development.

Our estimate of lost revenue shown in the table is for only 950 of the 1,400 acres
sold to the developer below fair market value. Therefore, we estimate that the
total dollar amount of lost revenue, as of August 2008, actually exceeds
$71 million (see exhibit D for full analysis of lost revenue as a result of sales
below fair market value).       Specifically, using the City’s price structure
(1999 appraisal price plus the CPI adjustment), sales of the entire 2,935 acres of
developable Stapleton property would have amounted to $91 million in August
2008. Yet, the comparable property sales information we obtained for only
950 acres of the property Forest City received from April 2001 to August 2008
showed that portion alone was worth $99.6 million.

While FAA officials state that they took steps consistent with applicable laws,
regulations, and FAA policies, they recognize the need to reexamine how the land
disposal was conducted and agree that there may be lessons learned. Nevertheless,
if FAA continues to allow land to be sold pursuant to the 1999 agreement through
2025, the airport will continue to lose tens of millions of dollars in future
revenues.
11
     We obtained these comparables from an independent consultant, specializing in real estate development in the
     Denver metropolitan area.
                                                                                 10


FAA DID NOT EFFECTIVELY OVERSEE AND ENFORCE
SPECIFIC AIRPORT REVENUE USE REQUIREMENTS
FAA oversight was not effective in ensuring proper use of airport revenues.
Specifically, FAA permitted the City to reduce the value of Stapleton land by
50 percent in the 1999 appraisal. The deductions were applied to offset impact
fees and financing costs that the developer would pay for parks, open space, and
infrastructure—a federally prohibited purpose for airport revenues. As a result,
we estimate that $40.5 million was diverted from airport use to fund Stapleton’s
redevelopment between April 2001 and May 2008.

The company that appraised the Stapleton land in 1999 was directed by the airport
to apply the following questionable deductions to the land value.

 • Impact Fees: Per the February 2000 Purchase Agreement between Forest City
   and SDC, Forest City pays an impact fee of $15,000 per acre of developable
   land to Park Creek Metropolitan District. The district uses those funds to
   develop parks and open space. The total value of the impact fee—
   $44 million—was deducted from the fair market value of the Stapleton
   property.

 • Infrastructure Costs: The City anticipated a shortfall would occur in its
   infrastructure funding during the first 4 years of Stapleton’s redevelopment.
   The shortfall would be covered by developer advances in the form of loans to
   the City, for which the developer would be reimbursed plus 10 percent interest.
   Even though the City planned to reimburse the developer, the projected
   shortfall amount was still deducted from the appraised land value to offset the
   developer advances; we estimate these deductions totaled about $40 million.
   To date, all developer advances have been reimbursed. (Exhibit E contains our
   calculations of deductions and the appraiser’s determination of Stapleton’s
   value as well as calculations of current and projected revenue diversions.)

FAA initially questioned the appropriateness of these deductions but still accepted
the appraisal. The sum of the deductions from impact fees ($44 million) and
infrastructure costs ($40 million) illustrates that if the remainder of the land is
transferred pursuant to the agreement with Forest City, revenue diversions as a
result of these deductions will total $84 million.

Further, the deduction for the infrastructure funding shortfall not only allows the
City to use Stapleton revenue to develop parks and open space, which is
prohibited, it also allows the developer to (1) obtain property at a reduced price,
(2) earn additional revenue, and (3) resell the property for significantly more than
it paid. The only party not benefiting from this arrangement is the Denver airport,
which has lost millions in potential revenue on the discounted sale of Stapleton
                                                                                  11


property. According to FAA grant conditions, this revenue should have been used
to pay Denver airport’s outstanding bond debt, which was approximately
$4.1 billion as of December 31, 2009, with a total annual debt service (principal
and interest) of about $348.5 million. Grant conditions between the City and FAA
that apply specifically to the Denver airport also state that Stapleton proceeds must
be used to fund the airport’s development costs.

Moreover, in a 1995 letter to the airport, FAA explicitly prohibited the use of
Stapleton’s revenues to fund the redevelopment costs of parks and open space.
FAA further advised that discussions regarding how to handle infrastructure
investments should occur among the City and County of Denver, FAA, and the
airlines.

Revenue diversions had been a contentious issue between the airlines and City in
1995 and continued to be until 2000 when the airlines and City entered into the
Stipulated Agreement. The agreement details amounts and purposes for which
airport revenue can be expended at Stapleton and specifically addresses impact
fees by stating that “any impact fee imposed be over and above the appraised fair
market value, including any adjustments. [emphasis added]” According to a major
airline’s legal counsel, who was also one of the principal authors of the Stipulated
Agreement, the intent of this provision was to prevent any impact fee from being
deducted from the appraised fair market value.

In our 1999 report, we also cautioned FAA against allowing airport revenue to be
used for Stapleton’s redevelopment. Specifically, we stated, “FAA needs to
establish controls over the amount of Airport revenues being expended for
Stapleton’s disposal and ensure that Airport revenues are not diverted to the
sponsor’s urban renewal program.” In response, FAA stated it would take action
to better monitor Denver airport revenue expenditures related to Stapleton and
limit the use of that revenue to eligible airport costs. FAA also stated it would
accomplish this through an agreement with the City, as sponsor, and the carriers, if
possible. In its August 2000 follow-up letter, FAA noted that the signed
Stipulated Agreement was “a significant step towards answering the OIG’s
concerns about the timeliness of the disposition process and the use of airport
funds at the Stapleton site.”

It is evident that FAA has neither strictly followed its own guidance nor ensured
that the City abided by the Stipulated Agreement, which set clear limitations on
the City’s use of airport revenue to develop Stapleton.

CONCLUSION
The budget constraints now facing FAA and the financial strains on the Nation’s
airlines and airports underscore the need for vigilant oversight of revenue use.
                                                                                 12


Because FAA did not effectively oversee the sale of Stapleton land, the airport has
lost and will continue to lose revenues that could be used to reduce its reliance on
Federal funding and lower its debt from the issuance of bonds. If these practices
continue until the developer acquires all of the Stapleton property, airport revenue
diversions from the deductions of land value in the 1999 appraisal will total about
$84 million. Given the magnitude of lost revenues to the Denver airport, FAA
should act quickly to ensure the City provides fair market value to the airport for
the remaining Stapleton property, reimburses the airport for lost revenue, and uses
revenue in accordance with Federal law.

RECOMMENDATIONS
We recommend that FAA’s Acting Assistant Administrator for Airports:

  1. For future airport closures, require more than one appraisal, use of indices
     other than CPI, and/or other methods to determine fair market value of large
     land sales when the land is transferred from the airport sponsor to the buyer
     over an extended period of time.

  2. Evaluate the current funding of the development of parks, open space,
     infrastructure, or any other federally prohibited diversions associated with
     Denver airport revenue and take action to cease such funding.

  3. Assess the revenue diversions identified in our analysis of the sale of
     Stapleton property and seek full recovery as necessary, plus interest, of those
     diversions and any others identified by FAA.

  4. Assess the difference between the amount that the Denver airport will
     receive from future sales of Stapleton property and the fair market value at
     the time of the sales and explore ways the City can provide the difference.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with FAA’s Director, Office of
Compliance and Field Operations on May 26, 2010, and provided FAA with our
draft report on August 3, 2010. After issuing our draft report, we met with FAA’s
Acting Associate Administrator for Airports and staff on September 8, 2010, to
discuss their concerns with the results of our review. Based on that meeting, we
made changes, where appropriate, to the draft report to address FAA’s comments
and provided FAA with our revised draft report on November 28, 2010. We
received the Agency’s formal response on January 6, 2011, which is included in
its entirety at the appendix. FAA nonconcurred with our findings and all four
recommendations. Therefore, we consider them as open and unresolved and
                                                                                    13


request that FAA reconsider its responses to the findings and recommendations
and provide a course of action that would meet the intent of the recommendations,
as discussed below.

As stated in our report, FAA allowed the City to lock into a long-term agreement
that did not maximize airport revenue. While we acknowledge that changes in the
real estate market cannot be predicted with certainty, the volatility of this market is
well known. Yet, the agreement—that FAA allowed—permits the developer, not
the airport, to reap the potential benefits of the changing market while the airport
incurs the risks. The agreement freezes the base price for the property at 1999
values for 25 years and provides an adjustment only for inflation with the use of
the CPI as a price escalator. However, the CPI only measures the changes in the
price of goods and services purchased for consumption by urban households but
does not include real estate. Consequently, if real estate prices dramatically
increase, as they did in Denver, the City must still sell land parcels at the 1999
price and therefore receives far less than the fair market value at the actual time of
sale. On the other hand, during periods where the market remains flat, the
developer can protect itself by timing purchases over 5-year intervals. The
agreement also benefits the developer through a reduced land price for its loans to
the City to develop trunk infrastructure, through the City’s repayments of those
loans plus interest, and through an additional land price reduction to offset an
impact fee of $15,000 per acre to develop parks and open space.

We contend that FAA’s oversight was not adequate to ensure that the airport fully
benefited from the sale of Stapleton property. We also note that while FAA
nonconcurred with our findings and recommendations, its response indicated an
acknowledgement that the guidance and processes regarding these types of large-
scale land disposals should be reexamined to maximize airport revenue.

Recommendation 1: FAA stated there was no need to require multiple appraisals
on all future airport closures as the results could be the same as at Stapleton. FAA
also stated that it was proper to permit the use of CPI as an escalator in
determining the value of each parcel of Stapleton property purchased by the
developer. In future sales of this nature, FAA stated it would evaluate which price
escalator to use and recommend the one most appropriate depending on the
circumstances of the disposal.

Our recommendation did not require multiple appraisals in all cases as FAA’s
comments suggest. The recommendation states that “more than one appraisal” is
an option to determine fair market value but not the only option. The
recommendation also includes “use of indices other than the CPI and/or other
methods to determine fair market value.” Further, as stated previously, CPI does
not measure changes in real estate prices, and we disagree that its use was
                                                                                    14


appropriate to compensate for the shortcomings of an agreement that locked the
City into a 25-year deal that froze the value of the land at 1999 prices.

Recommendation 2: FAA states that the development of parks and open space is
not a revenue diversion but rather a requirement under existing City ordinances
and therefore a matter of following the law. We understand that the development
of parks and open space is required per City ordinance and the cost should be
borne by the project developer. However, we question the decision to reduce
Stapleton’s fair market value, per acre, per district, to fund this development and
conclude that by doing so $84 million in revenue that should have gone to Denver
International Airport to pay down bond debt will instead be used to develop the
Stapleton property.

Finally, FAA has taken liberty in how it assigns infrastructure costs (trunk
infrastructure plus impact fees) to Forest City. FAA states Forest City is obliged
to independently fund $294 million in infrastructure costs and, in fact, has already
done so. We disagree. There is no question that Forest City is to pay an impact
fee of $15,000 per acre at time of purchase or $44 million in total at the
completion of the project. However, the fair market value of each acre was
reduced by the same amount in the appraisal. So, in effect, the payment and
reduction offset one another. The remaining trunk infrastructure cost is being
funded from another source (the Denver Urban Renewal Authority), and our
review indicated that Forest City has been reimbursed, with interest, for all
advances. Additionally, FAA states that trunk infrastructure costs are independent
of the $79 million purchase price of Stapleton property. We disagree. Stapleton’s
fair market value per acre, per district was reduced by trunk infrastructure costs of
about $84 million.

Recommendation 3: FAA states that no revenue diversions occurred as a result
of the sale of Stapleton property and any attempt to seek full recovery of the
diversions would be unlawful. FAA notes that it would be impractical to attempt
to seek full recovery on the sale of Stapleton property and likened it to a seller of a
residence asking the buyer for more money 10 years after the sale because the
residence had increased in value. However, this scenario does not apply to
Stapleton. Unlike a house sale, individual parcels of Stapleton property were
transferred over time with the fair market value being determined by the 1999
appraised value plus CPI at the time of transfer. Our analysis of comparable
properties sold during that time as well as discussions with the City Assessors
Office show that this pricing method did not reflect fair market value. We do not
state in the report that the City must go back to the buyer (the developer) and ask
for more money as FAA’s comments suggest. Rather, as FAA’s own guidance
states, an airport sponsor is responsible for paying fair market value to an airport,
regardless of the amount of money the airport sponsor receives from the sale of
                                                                                15


land from a buyer or developer. As stated in our report, the City does not have to
modify its agreements with the developer in order to pay the airport fair market
value.

Further, FAA’s response did not address the source of the revenue diversions we
identified. Those revenue diversions related directly to the deductions in fair
market value of Stapleton that were applied to offset impact fees and financing
costs that Forest City would pay for open space, parks, and infrastructure—a
federally prohibited purpose for airport revenue. This occurred regardless of other
comparable land sales at the time. Moreover, the Stipulated Agreement, which
FAA maintains it conformed to, is explicit on what airport revenues can be
expended at Stapleton and specifically addresses impact fees by stating that “any
impact fee imposed [must] be over and above the appraised fair market value,
including any adjustments. [emphasis added]”

Recommendation 4: FAA states that all parties entered into the sale of Stapleton
property based on the best information available at the time of the sale on
February 15, 2000, and there are neither differences to explore nor any future
compensation due from the City. We disagree. Sales of Stapleton property prior
to the execution of the Amended and Restated Stapleton Purchase Agreement
between SDC and Forest City clearly demonstrate that real estate values were
increasing and would increase subsequent to the February 2000 Agreement. In
fact, the City was aware of this condition as indicated by the example we provided
in the report regarding the first sale of Stapleton property in 1995. This was one
of many examples of land sales that we reviewed during our work that supports
our analysis of fair market value.

ACTION REQUIRED
We consider all four recommendations open and unresolved and request that FAA
reconsider its responses to the findings and recommendations and provide a course
of action within 30 days that would meet the intent of the recommendations.

We appreciate the courtesies and cooperation of FAA and representatives of the
City and airport during this audit. If you have any questions concerning this
report, please contact me at (202) 366-0500 or Scott Macey, Program Director, at
(415) 744-0434.

                                        #

cc: FAA Chief of Staff
    Acting Associate Administrator for Airports
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                               16




EXHIBIT A. OBJECTIVES, SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE
We conducted this performance audit from July 2008 to November 2010 in
accordance with generally accepted government auditing standards prescribed by
the Comptroller General of the United States. The audit steps were designed and
completed to provide reasonable assurance of detecting abuse or illegal acts.

Objective:
The objective of this review was to assess the effectiveness of FAA’s oversight in
ensuring (1) the airport is as self-sustaining as possible and obtains fair market
value for land sales and (2) the sponsor uses airport revenues only for airport
purposes in accordance with Federal law. These revenues include those from the
sale of the Stapleton International Airport (Stapleton) property.

Scope and Methodology:
To achieve our audit objective, we reviewed Denver International Airport
transactions. Those transactions also included the transactions resulting from the
disposition of Stapleton International Airport (Stapleton), which was closed and
replaced by the Denver International Airport on February 28, 1995. Specifically,
the audit team:

 1) Identified and analyzed the laws and regulations regarding proper use of
    airport revenue, airport disposal, and fair market value concepts.

 2) Obtained and analyzed key legal documentation, contracts, appraisal reports,
    and other correspondence and documentation pertaining to the Stapleton
    redevelopment and disposition.

 3) Interviewed the FAA Airport District Office personnel, FAA Headquarters
    personnel, Denver airport accounting and legal staff, City & County of
    Denver personnel, local Denver real estate experts, and airline trade groups.

 4) Toured the Denver airport property to identify companies with
    non-aeronautical leases at the airport. Of the 20 entities identified, we
    randomly selected 9 entities with such leases as of July 2008 and reviewed
    each lease to determine whether the airport was receiving fair rental value.

 5) Reviewed and analyzed all Stapleton property sales that occurred from
    March 1995 through August 2008. We conducted an analysis of Stapleton
    property sales to Forest City and comparable property sales between April
    2001 and August 2008 provided by an independent consultant who

Exhibit A. Objecti ves, Scope, Methodology, and Prior Audit
Coverage
                                                                                  17


     specializes in real estate development in the Denver metropolitan area. Of
     the approximately 1,400 acres of land sold between April 2001 and August
     2008, the consultant provided us comparable unimproved land sales
     corresponding to 950 acres of Stapleton land sales that we used to make our
     comparison. In order to make a direct comparison between Stapleton and the
     comparables, we chose only those sales of unimproved land.

 6) Conducted transaction testing of select payments of shared services between
    the City and County of Denver and the airport for 2006, 2007, and 2008. We
    selected 10 of 14 departments to review, generally including those
    departments with larger dollar payments. Of the more than $82 million in
    payments from 2006 through 2008, the payments we selected for review
    totaled more than $49 million.

7) Conducted testing of selected cost items allocated to the Denver airport per
   the City’s 2006 cost allocation plan. We examined the following cost
   categories: Legal Services, Auditors Office, Career Service Training, Small
   Business Opportunities, Public Works (Fleet Maintenance), Technology
   Services, Central Services (Office Services), Police Department, and Fire
   Department.      We selected these categories to review for the following
   reasons: (1) 100 percent of the costs were allocated to the airport;
   (2) payments for direct costs were used to offset indirect costs; and/or
   (3) direct costs were not captured to show how they were offsetting indirect
   costs. Of the $36.1 million allocated to the airport per the cost allocation plan,
   we examined over $32 million of these costs.

 8) Reviewed the working papers of the CPA firm, BKD, LLP, for their coverage
    of the Denver airport in the 2006 and 2007 single audit.

Prior Audit Coverage:
Office of Inspector General Report AV-1999-052, “Use of Airport Revenue,
Denver International Airport,” January 27, 1999. This report found that the
sponsor (1) used airport revenues to develop Stapleton property beyond that
necessary to dispose of the property, (2) used airport revenues for prohibited
purposes, and (3) did not maintain a fee and rental structure sufficient to make the
airport as self-sustaining as possible. All of our recommendations were closed by
November 29, 2000.




Exhibit A. Objecti ves, Scope, Methodology, and Prior Audit
Coverage
                                                18


EXHIBIT B. STAKEHOLDERS VISITED OR CONTACTED

FAA
  • FAA Headquarters, Washington, DC

  • Northwest-Mountain Region

  • Airport District Office, Denver, Colorado

City and County of Denver
  • Department of Law

  • Assessor’s Office

  • Stapleton Development Corporation

Denver Airport
  • Department of Law

  • Internal Audit

  • Division of Business and Technology

Denver Real Estate Groups

  • Transwestern

  • Bowes & Company

Industry/Airline Groups

  • Air Transport Association

  • Denver Airport Airlines Affairs Committee




Exhibit B. Stakeholders Visited or Contacted
                                                            19


  EXHIBIT C. TIMELINE OF SIGNIFICANT EVENTS AND DOCUMENTS




Exhibit C. Timeline of Significant Events and Documents
                                                                                                 20

        EXHIBIT D. AMOUNT OF LOST REVENUE FROM THE
        DISPOSITION OF STAPLETON PROPERTY FOR LESS THAN
        FAIR MARKET VALUE, APRIL 2001 THROUGH AUGUST 2008
 YEAR LAND
TRANSFERRED                               COST PER ACRE
      TO                                    DIFFERENCE                                        ACRES
 DEVELOPER        COST PER ACRE         (Stapleton Price minus     REVENUE LOST ON            SOLD
  (Stapleton) Stapleton   Comparable      Comparable Price)       STAPLETON PARCEL          (Stapleton)
     2008         $17,961     $42,708                 ($24,747)               ($261,328)         10.56
     2008         $27,540     $52,569                 ($25,029)               ($359,542)        14.365
     2008         $27,366    $150,214               ($122,848)              ($1,216,318)         9.901
     2008         $17,847    $177,936               ($160,089)              ($1,693,582)        10.579
     2007         $38,669    $116,000                 ($77,331)               ($309,324)              4
     2007         $27,366    $142,727               ($115,361)                ($647,983)         5.617
     2007         $38,669    $181,347               ($142,678)                ($177,063)         1.241
     2007         $27,366     $83,273                 ($55,907)             ($3,134,258)        56.062
     2007         $27,057    $366,013               ($338,956)              ($1,272,780)         3.755
     2007         $27,057    $380,000               ($352,943)              ($1,953,187)         5.534
     2007         $37,734     $80,048                 ($42,314)               ($273,814)         6.471
     2007         $26,704    $228,687               ($201,983)              ($5,090,982)        25.205
     2006         $37,338    $285,395               ($248,057)              ($2,212,420)         8.919
     2006         $26,421     $64,725                 ($38,304)               ($463,249)        12.094
     2006         $26,421    $130,679               ($104,258)                ($727,304)         6.976
     2006         $37,334    $197,378               ($160,044)                ($252,709)         1.579
     2006         $25,940     $47,045                 ($21,105)             ($2,000,036)        94.766
     2005         $36,655    $228,681               ($192,026)              ($1,153,692)         6.008
     2005         $25,940    $154,640               ($128,700)                ($284,774)        2.2127
     2005         $25,940    $130,000               ($104,060)                ($313,012)         3.008
     2005         $36,655    $188,193               ($151,538)              ($4,616,454)        30.464
     2005         $42,134     $78,285                 ($36,151)               ($213,833)         5.915
     2004         $36,036     $89,501                 ($53,465)               ($763,106)        14.273
     2004         $42,279     $47,000                  ($4,721)                ($15,046)         3.187
     2004         $42,143     $73,169                 ($31,026)             ($2,871,363)        92.547
     2004         $16,549      $7,789                    $8,760                 $211,405        24.133
     2004         $16,549     $43,328                 ($26,779)               ($612,061)        22.856
     2004         $16,535     $86,108                 ($69,573)             ($2,163,999)        31.104
     2004         $16,715    $439,270               ($422,555)             ($21,217,332)        50.212
     2004         $42,344     $68,165                 ($25,821)             ($2,049,723)        79.382
     2003         $36,215     $50,014                 ($13,799)               ($433,744)        31.433
     2003         $25,276    $455,466               ($430,190)              ($7,297,743)        16.964
     2003         $25,276    $162,602               ($137,326)              ($2,310,373)        16.824
     2003         $25,769     $33,229                  ($7,460)               ($240,891)        32.291
     2003         $41,760     $42,000                    ($240)                  ($8,615)       35.894
     2003         $35,716     $38,298                  ($2,582)               ($213,030)        82.506
     2002         $35,576    $174,892               ($139,316)                ($977,998)           7.02
     2002         $35,117    $172,191               ($137,074)              ($1,304,369)        9.5158
     2001         $24,004     $22,228                    $1,776                 $133,205        75.003
REVENUE LOST ON STAPLETON SALES                                            ($70,762,425)

        Exhibit D. Amount of Lost Revenue From the Disposition of
        Stapleton Propert y for Less Than Fair Market Value, April 2001
        Through August 2008
                                                                                                                      21


EXHIBIT E. DEDUCTIONS FROM STAPLETON LAND VALUE AND
AIRPORT REVENUE DIVERSIONS
The final appraised value of Stapleton was derived by using questionable deductions that
decreased the fair market value by more than 50 percent. Table E-1 below shows the two
different approaches the appraiser used to calculate the value of Stapleton land. The
sales comparison approach is based on sales of comparable properties, and the
development approach uses future cash flows (i.e., estimated revenues and expenses
generated by the development) to determine the property value.

With both approaches, the land value was about $162 million prior to deductions for
impact fees and infrastructure costs. After the deductions were taken, the appraiser
concluded the final value of the land was $76 million. In both valuation approaches, at
least $84 million was subtracted from Stapleton’s value.

                                Table E-1. Calculation of Deductions and
                              Appraiser’s Determination of Stapleton’s Value
                 Adjustments                     Sales Comparison                 Development Approach
                                                     Approach
         Fair Market Value                         $162,000,000                          $161,500,000
         Less: Impact Fee                          ($44,000,000)                         ($44,000,000)
                Infrastructure                     ($45,000,000)                         ($40,000,000)
               Total Adjustments          ($89,000,000)               ($84,000,000)
         Reduced Fair Market               $73,000,000                 $77,500,000
         Value
         The company performing the appraisal concluded the value should fall somewhere
         between the two approaches and set the value at $76,000,000.
       Source: OIG analysis of final appraisal report dated January 27, 2000

As shown in table E-2 below, revenue diversions totaled $40.5 million from April 2001
to May 2008 from impact fees and infrastructure costs. The City Attorney’s Office
provided documentation showing the developer purchased 1,416 acres of Stapleton
property and paid $21.2 million (1,416 x $15,000) in impact fees during this time period.
This represents the portion of the impact fee deduction shown in table E-1 that is
attributable to actual sales. We calculated the rate of infrastructure cost attributable to
each acre of land by dividing the infrastructure deduction by the total number of acres the
developer is expected to purchase ($40 million 12/2,935 acres = $13,629 13). By applying
this rate to the number of acres purchased by the developer, we calculated as of May
2008, $19.3 million ($13,629 x 1,416 acres) was diverted for infrastructure costs.



12
     The two appraisal methods reduced the fair market value by $40 million and $45 million. Consistent with principles of
     conservative estimates, we used the lesser amount in our calculation.
13
     $13,628.62 was rounded to $13,629.

Exhibit E. Deducti ons from Stapleton Land Value and Airport Revenue
Di versions
                                                                                               22


                Table E-2. Revenue Diversions April 2001 to May 2008
                         From the Sale of Stapleton Property
              Total Acres of Stapleton Property Purchased                   1,416 acres
              by Forest City as of May 2008:

              Multiplied by:
                 Impact Fee Rate of $15,000 per acre                       $21,200,000
                 Infrastructure Cost Rate of $13,629 per acre              $19,300,000

              Total Amount of Revenue Diversions
              for Non-Airport Use                                          $40,500,000

             Source: OIG calculations based on sales of Stapleton property to Forest City.
             Note: Totals are rounded.

While table E-2 above shows revenue diversions based on actual property sales, table E-3
shows the potential total revenue diversions resulting from impact fee and infrastructure
deductions, from April 2001 through December 2025, after all the property has been sold
to the developer. The developer is expected to purchase a total of 2,935 acres. By
multiplying the per acre rates for the impact fee ($15,000) and infrastructure cost
($13,629) by 2,935 we determined that total revenue diversions will exceed $84 million,
if the remainder of the land is transferred pursuant to the agreement with Forest City.

                          Table E-3. Potential Revenue Diversions
                           From the Sale of All Stapleton Property
             Total Acres of Stapleton Property Available for                 2,935 acres
             Purchase by Forest City through 2025

             Multiplied by:
                Impact Fee Rate of $15,000 per acre                         $44,025,000
                Infrastructure Cost Rate of $13,629 per acre                $40,000,000

             Total Amount of Potential Revenue Diversions
             From the Sale of Stapleton Property                            $84,025,000
            Source: OIG calculations based on final appraisal report dated January 27, 2000.
            Note: Totals are rounded.




Exhibit E. Deducti ons from Stapleton Land Value and Airport Revenue
Di versions
                                                                                               23


APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:            Jan 6, 2011
To:               Lou E. Dixon,
                  Principle Assistant Inspector General for Audit and Evaluation
From:            Clay Foushee, Director, Audit and Evaluation, AAE-1
Prepared by:     Randall Fiertz, Director of Airport Compliance and Field Operations, ACO-1
Subject:         FAA Response to OIG Report: Use of Airport Revenue at Denver
                 International Airport, Project No. 08A3007 AOOO


While the OIG report presents an extensive review of issues and offers considerable
opinion on the sale of land that once comprised Denver's Stapleton International Airport,
it is fundamentally flawed in its opinions relating to the sale and its proceeds. The
transaction was complex in its execution, as one might expect in a sale of over 4,000 acres
of land, some of which had considerable environmental remediation issues. However, in
simple terms, the land was indeed sold in 2000, based on market prices and expectations
at that time. Under the terms of the sale, the price was set in full compliance with
applicable FAA guidance, regulation, Federal, state and local law, and based upon
professional appraisal at the time. Ten years after the sales agreement was executed, the
OIG concluded that proceeds should have been greater. This is not reasonable as this
conclusion is based largely on land sales that transpired in more recent years under
entirely different circumstances. The criticism of the sales price for a 10 year-old
transaction, as asserted in the OIG report, is analogous to selling one's house and 10 years
later returning to the purchaser with demands for additional funds, armed with the clarity
of hindsight for a period of time in which prices appreciated considerably.

During the course of the OIG’s efforts we met to convey our concerns from a legal and
programmatic basis. During those discussions, we offered considerable documentation of
the legal and programmatic bases of the sale. We appreciate the OIG’s consideration and
participation in those meetings, and are grateful for those areas of the report where these
efforts helped to achieve a meeting of the minds. We remain willing to continue a
dialogue with the OIG if it could be constructive in achieving a better understanding of the
subject land sale and its basis.




Appendix. Agency Comments
                                                                                               24


Recommendation 1. For future airport closures, require more than one appraisal, use of
indices other than CPI, and/or other methods to determine fair market value of large land
sales, when the land is transferred from the airport sponsor to the buyer over an extended
period of time.

The FAA does not concur that the OIG report demonstrates sufficient rationale for FAA to
create the recommended blanket requirement for multiple appraisals. The specific aspects
of FAA's handling of the Stapleton disposition, which were in accord with all
requirements in place at the time, do not provide a sufficient basis for creating this
requirement. Further, there is no evidence presented that would indicate that the outcome
would be any different 10 years later with such a requirement in place.

The FAA acknowledges that large complex land disposals are worthy of careful
consideration, especially those airport closures associated with an AIP-funded
replacement airport. Therefore, the FAA will examine its guidance and processes with
regard to these types of large scale land disposals and ensure that it reflects best
management practices with regard to the valuation of closed and replaced airport property.
FAA will ensure its guidance provides clear direction as to when a second appraisal
should be performed, and identify what if any other actions should be performed to
determine the fair value for this kind of large complex disposal. We will circulate draft
guidance for review within one year of the OIG's issuance of its report.

With specific regard to Stapleton, the issues that the OIG finds with the appraisal
(including the timing of development drawdowns, the use of Consumer Price Index (CPI)
to value those drawdowns, and allowance for open space and infrastructure costs) would
have been common conditions included in any second appraisal of this sale. Open space
and infrastructure were specific terms of the sale and were integral in assessing the fair
market value (FMV) of the property. The City of Denver (City) and the FAA insisted that
these terms be addressed in the appraisal. The City of Denver selected Bowes and
Company because they were well qualified to conduct such an appraisal, and the FAA
concurred with the selection.

Due to the structure of the Stapleton disposal, which included individual parcel draw
downs over a period of years, the airport sponsor and FAA recognized the need to include
a logical and reasonable price escalator in the contract. The February 15, 2000 contract
with the purchaser, Forest City Development, applied the CPI to the price of future
property draw downs. The agreement provides for the value of the property to be
escalated by the CPI at the time Forest City takes possession. The parties to the contract
agreed to use the CPI because it protects the February 15,2000 sales price from inflation,
while not penalizing the developer for adding value as it develops the site with office
buildings, retail shops and residences. This development will add value to the adjoining
vacant parcels awaiting disposal under the contract by virtue of their proximity to
developed sites. In addition, Forest City's risks were and still are significant. The
developer must invest its own funds up front which it cannot recoup until it sells the site.

Since it was proper for all parties to the contract to consider the value gained from
entrepreneurial risk, it was proper for the FAA to permit the use of the CPI.

With regard to escalator clauses for future airport disposals, FAA endeavors to ensure that


Appendix. Agency Comments
                                                                                                25


the airport sponsor achieves the full benefit from the sale consistent with all applicable
requirements, while retaining the flexibility to structure the transaction to attract private
investment. As a result, there is a continuing need to use appropriate price escalators. In
any future sales of this nature, FAA will evaluate which price escalators to use and
recommend the one most appropriate depending on the specific circumstances of a
project.

Recommendation 2. Evaluate the current funding of the development of parks, open
space, infrastructure, or any other federally prohibited diversions, associated with Denver
airport revenue, and take action to cease such funding.

The FAA does not concur with this recommendation as FAA does not agree that the set-aside
of acreage for parks and open space, and the development of this space is unlawful
revenue diversion. Set-aside of acreage for parks and open space was necessary for the
contract to comply with City ordinances in place at the time of the sale. Consequently, the
set-aside was a matter of following the law, not a revenue diversion as the report indicates.
As such, it was appropriate for the February 15, 2000 Stapleton Purchase Agreement to
include provisions that ensure the agreement is in accord with the law.

The appraisal shows the land set-aside is proportionate to similar projects in the Denver
area. The Stapleton set-aside is .11 acres per residential unit, Highlands Ranch is .34
acres per residential unit, and the former Lowry Air Base is .19 acres per residential unit.
In addition, the appraisal presents a national survey that shows .12 acres per residential
unit. Furthermore, the OIG did not take into account the geography of the set aside land,
which includes lakes and streams. Such land is not suitable for development and is
appropriate for including in a set-aside.

The funding for the development of parks and open space was laid out in the purchase
agreement. The agreement requires Forest City to pay $294,000,000 upfront for trunk
infrastructure costs (see table). That amount is made up of two components-the system
development fee of $44,025,000 and local tax increment financing $249,975,000. The
system development fee is not subject to rebate, so Forest City must pay that entire
amount. Forest City will be eligible for a rebate of a portion of the local tax increment
financing, after the property is developed, sold, and on the tax rolls. Forest City will be
responsible for independently funding $90,000,000 of those costs. So, Forest City's
nonreimbursed portion of the trunk infrastructure cost is the $44,025,000 plus the
$90,000,000 for a total of $134,025,000.

In addition, trunk infrastructure costs are independent of the purchase price of the
property, which was $79,400,000, and the purchase price is the only funding which the
FAA should be monitoring. The $79,400,000 is airport revenue and is placed in the
account of the Denver International Airport. The $294,000,000 that Forest City expended
for trunk infrastructure as part of the sales agreement is not airport revenue, so there
would be no reason for the FAA to evaluate the use of that money. Since those funds are
outside of the regulatory authority, the FAA would be acting outside of its authority to
conduct a review of those funds.




Appendix. Agency Comments
                                                                                                26


Recommendation 3. Assess the revenue diversions identified in our analysis of the sale
o/Stapleton property and seek full recovery as necessary, plus interest, of those diversions
and any other identified by FAA.

The FAA does not concur that revenue diversions occurred as a result of the sale of the
Stapleton property. The price increases identified in the OIG report are transactions that
took place after the contract of sale to Forest City, which was executed on February 15,
2000. Asking the City to recoup funds based on price escalations after the sale is like the
seller of a residence asking the buyer for more money ten years after the sale because the
residence has increased in value over that time. Such a request would neither be lawful
for the seller of a residence, nor would it be lawful for the City to apply that condition to
the Stapleton transactions.

While not fully recognized in the report, the sale was completed on that date in full
accordance with laws and requirements. The OIG draft report fails to acknowledge the
binding nature of the sale. The appraisal preceding the sale established the FMV, which
the City adjusts by the CPI as the parcels are taken down for development by Forest City.
The City uses CPI as the escalator to ensure the sales price is adjusted by the general rise
in prices. Prior to the completion of the sale, all parties to the contract agreed that new
appraisals for each parcel would not be appropriate because the new appraised value
would reflect increased value from Forest City's surrounding developments and
infrastructure improvements. The FAA agreed that Forest City was entitled to those
increased values, since they were the result of Forest City's efforts.

The sale also conformed to the Stipulated Agreement between the City and the air carriers.
The Stipulated Agreement required the City to obtain FMV from the sale of the property
and for the proceeds from the sale to be credited to the airport account. The City did
receive FMV at the time of sale, February 15, 2000, which was $79,400,000 and based on
the January 27, 2000 appraisal. The City receives payment, plus CPI, as Forest City
draws down tracts for development. The City credits the proceeds from the draw downs
to the airport account. The OIG however focused on trunk infrastructure investments and
called those investments revenue diversion, citing in particular the $42,025,000 for parks
and wetland development. Infrastructure development however is independent of the
purchase price. It is not airport revenue and is outside of the FAA's regulatory authority.

Also, the OIG does not address the reason for the development draw downs. With the
closing of Stapleton International Airport, the City had to determine the best way to
develop the 4,051 acre site. One alternative would have been for the City to assume the
role of developer and sell parcels to contractors, who would then develop their sites in
accordance with their individual strategies. The second alternative was to sell the entire
site to one developer and have it developed in accordance with a coherent master plan.
The City, with FAA's approval, chose the second option because it did not have the
expertise or resources to develop the entire site. It concluded that a single developer
would bring a greater overall sales price and a more balanced development. When the
City chose the second option, it created the need for the draw downs because the acreage
was too large to develop at one time.

The appraisal was conducted by a qualified appraiser who established the raw land value
of the Stapleton property, which the FAA reviewed and found to be satisfactory. The


Appendix. Agency Comments
                                                                                                27


draft OIG report asks that we ignore the purchase agreement and treat each drawdown as
though it were a new sale using a current FMV. Since subsequent transactions are outside
FAA's regulatory authority, there is no way for the FAA to invoke the revenue-use statute
for these transactions.

If prices had unexpectedly fallen after February 15, 2000, and had Forest City invested in
infrastructure, this seemingly lucrative investment could have resulted in a loss. The
potential for declining real estate values is real and has been demonstrated over the last
few years. When the City sold the land in February 15, 2000, it opted out of the risk of
real estate price fluctuations. Forest City assumed the risks in return for gaining the
potential reward (or loss). The FAA concurred with the $79,400,000 sales price as the
current FMV of the land, which the CPI protects from general price increases.
Consequently, there is no revenue diversion and no funds to recoup.

Recommendation 4. Assess the difference between the amount that the Denver airport
will receive from future sales of Stapleton property and the fair market value at the time of
the sales and explore ways the City can provide the difference.

The FAA does not concur with this recommendation. As discussed in response to the
previous recommendations, the sale of the Denver Stapleton property was completed on
February 15, 2000. Prior to the sale, an expert appraisal established FMV and all parties
agreed to this value in the binding contract. The sale agreement included provisions for
future land draw downs by the developer at an inflation adjusted price. There is no
difference to make up and there are no further sales planned. As discussed above, the
FAA does not have the authority to apply the revenue diversion statutes to the increases in
property values that occur after the date of sale, which is the date that Forest City assumed
the risk of its capital investment succeeding, or failing.

Also, on February 15, 2000, the Denver Airport account took the capital to invest in its
new airport, while ceding the risks associated with the Stapleton parcel to Forest City.
Finally, we note that the FAA, any airport sponsor, nor any professional appraiser can
foresee future fluctuations in the economy or any specific real estate market. As is clear
from recent economic developments, many parties entered into transactions to acquire and
hold land that have not been successful investments. All parties entered into the sale of
the Stapleton property based on the best information available at the time of the sale on
February 15, 2000, and there is neither difference to explore, nor any future compensation
due from the City of Denver, nor other parties to the sales contract.




Appendix. Agency Comments
                                                                                                                  28


                                  Cost to Develop the Stapleton Site
                                  For Residential and Business Use

                                                                            Tax
                                                   Developer’s          Increment            Developer’s
                                                    Upfront             Financing           Cost After Tax
                                                     Costs             and Special            Rebates*
                                                                       Tax Districts

     Forest City Purchase Price                      $79,400,000                      $0       $79,400,000

     Trunk Infrastructure-major
     arterials, park and open space
     improvements, the proposed
     interchange, and major utilities, to
     be paid for with a combination of
     System Development Fees and
     Tax Increment Financing.
        System Development Fee-Also
        called the Impact Fee                       $44,025,000                   $0           $44,025,000
        Tax Increment Financing                    $249,975,000         $159,975,000           $90,000,000
         Total Trunk Infrastructure                $294,000,000         $159,975,000          $134,025,000

     In-Tract Infrastructure-the cost
     for neighborhood streets, alleys,
     and extension of utilities to
     individual sites to be paid with
     taxes raised from special tax
     districts and by the developer
     picking up the expected shortfall.
       Special Tax Districts                       $225,000,000         $225,000,000                    $0
       Expected Shortfall                          $110,000,000                   $0          $110,000,000
         Total In-Tract Infrastructure             $335,000,000         $225,000,000          $110,000,000

     Total-Purchase Price, Trunk
     Infrastructure, and In-Tract                  $708,400,000         $384,975,000          $323,425,000
     Infrastructure

     Developable Acres                                       2,935                2,935                2,935

     Cost Per Developable Acre                          $241,363             $131,167              $110,196


*The Developer must initially pay the total cost ($241,363) per acre. Later after the property is developed
and on the tax rolls, the Developer will be eligible for rebates ($131,167 per acre) from tax increment
financing and special tax districts. However the tax increment financing and the special tax districts will not
cover all the infrastructure costs. The cost to the Developer after rebates will be $110,196 per acre.




Appendix. Agency Comments
